TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Progress Has Been Made in Standardizing
                   Processes in the Computing Centers, but
                    Additional Improvements Are Needed to
                               Maximize Benefits



                                       November 30, 2009

                              Reference Number: 2010-20-007




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               November 30, 2009


 MEMORANDUM FOR CHIEF TECHNOLOGY OFFICER


 FROM:                    (for) Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Progress Has Been Made in Standardizing
                                 Processes in the Computing Centers, but Additional Improvements Are
                                 Needed to Maximize Benefits (Audit # 200820031)

 This report presents the results of our review to determine the efficiency and effectiveness of
 implementing the Process Standardization component of the TRIPLEX initiative. This review
 was part of our Fiscal Year 2008 Annual Audit Plan coverage under the major management
 challenge of Modernization of the Internal Revenue Service (IRS).

 Impact on the Taxpayer
 The IRS began the TRIPLEX initiative to optimize data center operations using industry best
 practices. Once fully implemented, the TRIPLEX initiative will create a Uniform Operating
 Environment across the three computing centers, operated by a Competency Based
 Organization 1 through the standardization of processes and tools. This will make better use of
 taxpayer dollars by reducing labor costs and mitigating risks that can hamper the IRS’ ability to
 perform its primary mission of tax collection and compliance activities.

 Synopsis
 In Calendar Year 2002, the IRS Chief Information Officer began the TRIPLEX initiative, which
 was developed by the IBM Corporation to optimize data center operations using industry best
 practices. The TRIPLEX initiative is intended to help the Enterprise Operations organization
 transform into an optimized enterprise computing center environment. One of the three main

 1
     See Appendix V for a glossary of terms.
                 Progress Has Been Made in Standardizing Processes in the
               Computing Centers, but Additional Improvements Are Needed to
                                    Maximize Benefits


components of the TRIPLEX initiative, and the focus of our audit, is Process Standardization
(including process reengineering efforts). In October 2005, the Enterprise Operations
organization took the first step in a multi-year process and stood up a Competency Based
Organization.
Implementation of the Competency Based Organization and Process Standardization has resulted
in labor costs savings and improved operations. The Competency Based Organization structure
significantly reduced the number of manager and nontechnical positions, and resulted in
changing the grade levels of some technical employees. The reduction of 129 full-time
equivalent positions resulted in more than $10 million in labor savings. In addition, the
Enterprise Operations organization selected 10 processes for reengineering, and the completed
and ongoing process reengineering efforts have resulted in operational improvements. Overall,
the implementation of the Competency Based Organization and the completed process
reengineering efforts have established a framework and a good foundation for continuing
improvements within the Enterprise Operations organization.
While savings have been realized and operations improved, additional improvements are needed
to ensure ongoing and future process reengineering efforts are effectively planned, and timely
and successfully implemented. Two of the process reengineering efforts were not effectively
planned to ensure timely and successful implementation. Specifically, the Capacity Management
process reengineering team does not have a plan in place to effectively monitor its progress. In
addition, while the Detail Designs have been developed, no progress has been made since the
completion of the Detail Designs. Also, the Data and Storage Management process
reengineering team does not have a timeline scheduling completion of the remaining process
improvement activities such as the Detail Design Phase and any associated deliverables coming
out of that phase (e.g., standard operating procedures). Without giving due attention to its
process reengineering efforts, the Enterprise Operations organization cannot effectively monitor
the progress and ensure timely completion of the process reengineering efforts. As a result, the
maximum benefits resulting from the completed process reengineering efforts may not be
realized.
In addition, five of seven completed or ongoing operational processes selected for reengineering
were not effectively baselined prior to the initiation of the reengineering efforts. The
reengineering teams also had not implemented the performance measures that had been designed
for some of these reengineering efforts. Operational processes were not baselined and
performance measures were not implemented because process reengineering management and
staff have not focused on performance management during the development and execution of the
process reengineering efforts. Without operational process baseline and performance measure
information, management cannot assess the improved effectiveness and efficiency of the
reengineered processes.



                                                                                               2
                  Progress Has Been Made in Standardizing Processes in the
                Computing Centers, but Additional Improvements Are Needed to
                                     Maximize Benefits



Recommendations
We recommended that the Chief Technology Officer ensure the Enterprise Operations
organization’s 1) process reengineering teams adequately plan the scope of the effort, establish
time periods for workload completion, track the progress, timely complete the effort, and have
adequate resources, 2) management timely completes the remaining process reengineering
efforts or, if resources are not available to timely complete the efforts, suspends or cancels the
process reengineering effort(s), 3) Configuration Management process reengineering team
establishes a schedule for entering the prioritized configuration items in the Configuration
Management Library, 4) operational processes selected for reengineering are baselined to
establish the current state of the process, and 5) implementation of reengineered process
performance measures.

Response
IRS management agreed with our recommendations and plans to take corrective actions
including developing standard operating procedures to ensure process reengineering teams
adequately plan the scope of the effort, establish time periods for workload completion, track the
progress, timely complete the effort, and have adequate resources. IRS management will ensure
the completion of the remaining process reengineering efforts in a timely manner by
implementing standard operating procedures to schedule and track future reengineering
processes. If resources are not available to complete the efforts, management will suspend or
cancel the process reengineering efforts. Management will develop a schedule for entering
configuration items in the Configuration Management Library and ensure operational processes
selected for reengineering are baselined to establish the current state of the process. Also,
management will implement performance measures to determine the effectiveness and efficiency
of the reengineered processes. Management’s complete response to the draft report is included
as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services), at (202) 622-8510.




                                                                                                     3
                        Progress Has Been Made in Standardizing Processes in the
                      Computing Centers, but Additional Improvements Are Needed to
                                           Maximize Benefits




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Implementation of the Competency Based Organization and Process
          Standardization Has Resulted in Labor Costs Savings and Improved
          Operations .....................................................................................................Page 4
          Planning of Process Reengineering Efforts Needs to Be Improved .............Page 6
                     Recommendations 1 and 2: ................................................Page 7

                     Recommendation 3:..........................................................Page 8

          Operational Processes Selected for Reengineering Were Not Baselined
          and Performance Measures Were Not Implemented ....................................Page 8
                     Recommendations 4 and 5: ................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Description and Status of the Process Reengineering
          Efforts ...........................................................................................................Page 14
          Appendix V – Glossary of Terms .................................................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
        Progress Has Been Made in Standardizing Processes in the
      Computing Centers, but Additional Improvements Are Needed to
                           Maximize Benefits




                      Abbreviations

IRS             Internal Revenue Service
                      Progress Has Been Made in Standardizing Processes in the
                    Computing Centers, but Additional Improvements Are Needed to
                                         Maximize Benefits




                                              Background

In Calendar Year 2002, the Internal Revenue Service (IRS) Chief Information Officer began the
TRIPLEX initiative, which was developed by the IBM Corporation to optimize data center
operations using industry best practices. The TRIPLEX initiative is intended to help the
Enterprise Operations organization transform into an optimized enterprise computing center 1
environment by reducing labor costs and mitigating risks that can hamper the IRS’ ability to
perform its primary mission of tax collection and compliance activities. The TRIPLEX initiative
is comprised of three main components:
1. Process Standardization – This component is a combination of processes that, when
   completed, will provide an operating structure enabling the Enterprise Operations
   organization to efficiently function as a single corporate entity managing resources,
   technologies, and workloads within a Uniform Operating Environment across the three
   computing centers.
      The standardization of processes is a detailed review and reengineering effort to implement
      standard operational information technology processes for 26 processes having the greatest
      effect on the Enterprise Operations organization. The IBM Corporation-developed Process
      Reference Model and Information Technology Infrastructure Library, which is based on best
      practices, is being used to guide the standardization activities. Before beginning validation
      or reengineering, each process was individually evaluated by a panel of Enterprise
      Operations organization management and staff to determine which of the processes would be
      addressed first. The 10 processes selected for reengineering are:
      •    Capacity Management.
      •    Change Management.
      •    Configuration Management.
      •    Data and Storage Management.
      •    Incident Management.
      •    Information Technology Security Management.
      •    Information Technology Service Continuity Management.
      •    Inventory Management and Validation (formerly known as Asset Management).


1
    See Appendix V for a glossary of terms.
                                                                                            Page 1
                   Progress Has Been Made in Standardizing Processes in the
                 Computing Centers, but Additional Improvements Are Needed to
                                      Maximize Benefits



    •   Problem Management.
    •   Stakeholder Requirements Management.
2. Uniform Operating Environment – This component contains two key initiatives: Enterprise
   Systems Management and Service Delivery Command Center.
    •   The Enterprise Systems Management initiative uses technology placed to optimize the
        technical capabilities of the infrastructure, without regard to the personnel requirements.
        In June 2007, the new Enterprise Systems Management organization was deployed and
        teams are continuing to work on related TRIPLEX initiatives. We conducted an audit of
        the Enterprise Systems Management initiative and issued a report in September 2008. 2
    •   The Service Delivery Command Center initiative establishes the technology locations for
        computing and network components and the technology command and control locations.
        The Service Delivery Command Center was deployed in October 2006, with a mission to
        avoid/minimize service interruptions for customers. It provides incident management
        and proactive monitoring support of all Enterprise Operations organization infrastructure
        to ensure normal information technology service operations are maintained. A review of
        the Service Delivery Command Center is included in our Fiscal Year 2010 Annual Audit
        Plan.
3. Optimized Technology Infrastructure – This component is to improve the Modernization and
   Information Technology Services organization’s services through standardizing the
   infrastructure, services, best practices, and processes of the Enterprise Operations and the
   End User Equipment and Service organizations. When completed, this will provide an
   operating structure enabling the Enterprise Operations organization to efficiently function as
   a single corporate entity managing resources, technologies, and workloads within a Uniform
   Operating Environment. The Optimized Technology Infrastructure component currently has
   one project in progress, the Server Consolidation and Virtualization project.
In September 2003, the IRS identified several functions within the computing center operations
that would benefit from significant process reengineering efforts or organizational changes
consistent with a “best in class” operating model. The comprehensive improvement strategy
included transforming the computing center operations from a geographically based organization
to a Competency Based Organization in the Enterprise Operations organization. In
October 2005, the Enterprise Operations organization took the first step in a multi-year process
and stood up a Competency Based Organization.
Our review focused on the Process Standardization component of the TRIPLEX initiative. This
review was performed at the IRS Enterprise Operations organization offices in

2
 The Enterprise Systems Management Program Is Making Progress to Improve Service Delivery and Monitoring,
but Risks Remain (Reference Number 2008-20-161, dated September 12, 2008).
                                                                                                    Page 2
                 Progress Has Been Made in Standardizing Processes in the
               Computing Centers, but Additional Improvements Are Needed to
                                    Maximize Benefits



New Carrollton, Maryland, during the period February through August 2009. We conducted this
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                           Page 3
                 Progress Has Been Made in Standardizing Processes in the
               Computing Centers, but Additional Improvements Are Needed to
                                    Maximize Benefits




                                Results of Review

Implementation of the Competency Based Organization and Process
Standardization Has Resulted in Labor Costs Savings and Improved
Operations
The Competency Based Organization stood up in October 2005 with a structure that significantly
reduced the number of manager and nontechnical positions, and resulted in changing the grade
levels of some technical employees. The reduction in 129 full-time equivalent positions resulted
in more than $10 million in labor savings. In Fiscal Year 2006, $5.6 million of the savings was
used to pay for contractor support to implement the Competency Based Organization. The
remaining $4.4 million in savings was used to offset a shortage in the labor budget.
Organizations with similar technical positions were reviewed to determine the consistency of
roles and responsibilities. For example, both the Information Technology Infrastructure and the
Enterprise Computing Center organizations created teams to identify role and responsibility
inconsistencies of database/system administrators, Tier II support services, and storage support
services. The organizational review of technical positions led to the development of updated
roles and responsibilities.
In addition, five of seven completed and ongoing process reengineering efforts have resulted in
operational improvements. Figure 1 presents the operational improvements resulting from
completed and ongoing process reengineering efforts.




                                                                                          Page 4
                    Progress Has Been Made in Standardizing Processes in the
                  Computing Centers, but Additional Improvements Are Needed to
                                       Maximize Benefits



         Figure 1: Operational Improvements Resulting From Completed and
                      Ongoing Process Reengineering Efforts

Process Being                                            Improvements
Reengineered
Configuration       Improved the Enterprise Operations organization’s operations by creating a
Management          Configuration Management Library to organize, control, maintain, and access
                    information. The Configuration Management Library contains documentation
                    or links to various Uniform Resource Locators and automates the Investment
                    Management and Configuration Control Board process. As of April 2009,
                    approximately 100 items were contained in the library.
Information         The Security Program consists of Security Management, Technical Security,
Technology          and Operational Security. Each component was clarified further into
Security            individual activities, and standard operating procedures were developed to
Management          manage these activities. For example, an Enterprise Operations Security
                    Program Communication Plan was developed to maximize consistency and
                    efficiency in how security documentation is communicated throughout the
                    organization. The process reengineering team also developed procedures for
                    continuously monitoring server compliance with security requirements.
Information         During Fiscal Year 2008, the process reengineering team focused on getting
Technology          the Information Technology Contingency Plans accurately completed so they
Service             could be executed by Enterprise Operations organization management. As a
Continuity          result, the number of Information Technology Contingency Plans requiring
Management          Get Well Plans decreased from 113 in Fiscal Year 2008 to 2 in Fiscal
                    Year 2009.
Inventory           Created four automated reports that provide specific information to
Management          management about the computer inventory. The reports are used to support a
and Validation      variety of inventory or asset management activities and contain information
                    such as the number of work stoppage incidents and downtime hours.
                    Previously, this information was obtained through ad hoc and labor intensive
                    methods.
Stakeholder         Created the standard operating procedures and five documents/reports.
Requirements        Management’s effective use of these documents/reports resulted in a steady
Management          decline of overdue Unified Work Request responses from more than 90 in
                    April 2004 to zero in March 2009.
Source: Interviews of IRS personnel and the review of documentation provided by the IRS.

The labor costs savings and operational improvements were realized because the Program
Management Executive Steering Committee provided the proper level of executive oversight and

                                                                                           Page 5
                 Progress Has Been Made in Standardizing Processes in the
               Computing Centers, but Additional Improvements Are Needed to
                                    Maximize Benefits



a process and schedule for implementing the process reengineering efforts were established.
Senior management also conducts operational reviews of the process reengineering efforts.
Based on the implementation of the Competency Based Organization to date and the completed
process reengineering efforts, the IRS has established a framework and a good foundation for
continuing improvements within the Enterprise Operations organization.
While savings have been realized and operations improved, additional improvements are needed
to ensure ongoing and future process reengineering efforts are effectively planned, and timely
and successfully implemented.

Planning of Process Reengineering Efforts Needs to Be Improved
Two of the process reengineering efforts were not effectively planned to ensure timely and
successful implementation. Specifically:
   •   The Capacity Management process reengineering team does not have a plan in place to
       effectively monitor its progress. For example, the Capacity Plan is a major product
       resulting from the Capacity Management process reengineering, but the team could not
       provide us with an estimated date or time period for the completion of the Capacity Plan.
       In addition, the Detail Designs for the IBM Tier I, Tier II, and Unisys platforms have
       been developed, but no progress has been made since the completion of the Detail
       Designs. This initiative started in July 2007.
   •   The Data and Storage Management process reengineering team does not have a timeline
       scheduling completion of the remaining process improvement activities such as the Detail
       Design Phase and any associated deliverables coming out of that phase (e.g., standard
       operating procedures). This initiative started in January 2008.
In addition, while the Configuration Management process reengineering effort has been
completed, the team does not have a prioritized list of configuration items to be added to the
Configuration Management Library. The process reengineering team also does not have a
schedule for adding the items to the Configuration Management Library and a method for
tracking the status of the identified configuration items.
Finally, IBM Corporation contractors served as technical and process reengineering liaisons and
provided technical recommendations and project management leadership. However, the contract
with the IBM Corporation was cancelled in May 2008 due to a lack of funding. All of the
process reengineering duties are currently performed by IRS employees as additional duties
with the employee’s primary responsibilities taking priority. As a result, some of the
process reengineering efforts lack the focus, urgency, or resources to complete them.




                                                                                            Page 6
                    Progress Has Been Made in Standardizing Processes in the
                  Computing Centers, but Additional Improvements Are Needed to
                                       Maximize Benefits



The Clinger Cohen Act of 1996 3 states that periodic reviews of selected information resources
management activities of the executive agencies should be performed in order to ascertain the
efficiency and effectiveness of information technology in improving the performance of the
executive agency and the accomplishment of the missions of the executive agency.
Without giving due attention to its process reengineering efforts, the Enterprise Operations
organization cannot effectively monitor the progress and ensure timely completion of the process
reengineering efforts. Also, the maximum benefits resulting from the completed process
reengineering efforts may not be realized. For example, the Data and Storage Management
process reengineering team may not be able to support the data strategy goal to eliminate
redundant storage, and the Configuration Management process reengineering team runs the risks
of not being able to timely bring in newer versions of configuration items to the Enterprise
Operations organization environment.
Management Action: After we discussed the lack of a prioritized list of configuration items to
be added to the library with the Configuration Management process reengineering team, it
compiled the list of items with the schedule for adding the items to the library yet to be
determined.

Recommendations
The Chief Technology Officer should ensure the Enterprise Operations organization’s:
Recommendation 1: Process reengineering teams adequately plan the scope of the effort,
establish time periods for workload completion, track the progress, timely complete the effort,
and have adequate resources.
         Management’s Response: IRS management agreed with this recommendation. The
         Enterprise Operations organization will develop a repeatable process in the form of
         standard operating procedures to ensure process reengineering teams adequately plan the
         scope of the effort, establish time periods for workload completion, track the progress,
         timely complete the effort, and have adequate resources.
Recommendation 2: Management timely completes the remaining process reengineering
efforts. If resources are not available to timely complete the efforts, the Enterprise Operations
organization should then suspend or cancel the process reengineering effort(s).
         Management’s Response: IRS management agreed with this recommendation. The
         Enterprise Operations organization will ensure management completes the remaining
         process reengineering efforts in a timely manner by implementing a yearly repeatable

3
 Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C.,
16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
44 U.S.C., 49 U.S.C., 50 U.S.C.).
                                                                                                             Page 7
                  Progress Has Been Made in Standardizing Processes in the
                Computing Centers, but Additional Improvements Are Needed to
                                     Maximize Benefits



       process as part of the standard operating procedures to schedule and track future
       reengineering processes. If resources are not available to complete the efforts, the
       Enterprise Operations organization will suspend or cancel the process reengineering
       efforts.
Recommendation 3: Configuration Management process reengineering team establishes a
schedule for entering the prioritized configuration items in the Configuration Management
Library.
       Management’s Response: IRS management agreed with this recommendation. The
       Enterprise Operations organization will ensure the Configuration Management process
       reengineering team implements a yearly repeatable process as part of the standard
       operating procedures to develop a schedule for entering configuration items in the
       Configuration Management Library.

Operational Processes Selected for Reengineering Were Not
Baselined and Performance Measures Were Not Implemented
Five of seven completed or ongoing operational processes selected for reengineering were not
effectively baselined prior to the initiation of the reengineering efforts. The five processes are
Capacity Management, Configuration Management, Data and Storage Management, Information
Technology Security Management, and Inventory Management and Validation.
Process reengineering managers were unable to provide us with results of any testing or reviews
performed to baseline the operational processes within the Enterprise Operations organization’s
control. In addition, the IBM Corporation designed performance measures for some of these
process reengineering efforts, but the process reengineering teams had not implemented the
performance measures. For example, one of the measures listed in the Detail Design document
for the Capacity Management process reengineering effort is to assess the average time and total
cost to produce a capacity plan, but the reengineering team was not recording the time expended
or the number of full-time equivalents used to complete the plan. Also, the Information
Technology Security Management process reengineering team developed a security plan that
lists 18 activities needed to complete the process reengineering effort and performance measures
for each activity. However, the process reengineering team did not perform any baseline reviews
or testing to facilitate the determination of the effectiveness of the process reengineering effort.
The Information Technology Security Management process reengineering team advised us that it
has not yet assessed performance measures for the activities completed and no results have been
gathered.
The Clinger Cohen Act of 1996 states that the Chief Information Officer/Chief Technology
Officer shall monitor the performance of information technology programs of the agency,
evaluate the performance of those programs on the basis of the applicable performance
measurements, and advise the head of the agency whether to continue, modify, or terminate a

                                                                                             Page 8
                    Progress Has Been Made in Standardizing Processes in the
                  Computing Centers, but Additional Improvements Are Needed to
                                       Maximize Benefits



program or project. The Government Accountability Office Standards for Internal Control in
the Federal Government 4 states that managers at the functional or activity level need to compare
actual performance to planned or expected results and analyze significant differences.
In addition, effective implementation of the Process Reference Model-Information Technology
requires continuous assessment of information technology business processes. One of the key
steps of the Process Reference Model-Information Technology guidance is the establishment of
measures and setting targets to improve process effectiveness and efficiency. These measures
and targets facilitate the continuous assessment of business processes.
Operational processes were not baselined and performance measures were not implemented
because process reengineering management and staff have not focused on performance
management during the development and execution of its process reengineering efforts. Without
operational process baseline and performance measure information, management cannot assess
the improved effectiveness and efficiency of the reengineered processes.

Recommendations
The Chief Technology Officer should ensure the Enterprise Operations organization’s:
Recommendation 4: Operational processes selected for reengineering are baselined to
establish the current state of the process.
          Management’s Response: IRS management agreed with this recommendation. The
          Enterprise Operations organization will implement a yearly repeatable process as part of
          the standard operating procedures to ensure operational processes selected for
          reengineering are baselined to establish the current state of the process.
Recommendation 5: Implementation of reengineered process performance measures.
          Management’s Response: IRS management agreed with this recommendation. The
          Enterprise Operations organization will include the implementation of performance
          measures as part of the reengineering standard operating procedures to determine the
          effectiveness and efficiency of the reengineered processes.




4
    GAO/AIMD-00-21.3.1, dated November 1999.




                                                                                            Page 9
                      Progress Has Been Made in Standardizing Processes in the
                    Computing Centers, but Additional Improvements Are Needed to
                                         Maximize Benefits



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the efficiency and effectiveness of
implementing the Process Standardization component of the TRIPLEX initiative. To accomplish
this objective, we:
I.         Evaluated the efficiency and effectiveness of the Competency Based Organization 1
           implementation.
           A. Determined the effectiveness of the governance process for overseeing the
              implementation of the TRIPLEX initiative.
           B. Interviewed management to determine the process for ensuring the roles and
              responsibilities between the computing centers are consistent and how the
              inconsistencies are documented and resolved.
           C. Interviewed management and reviewed policies and procedures to determine the
              process for ensuring employees maintain the skills and competencies required to
              maintain the Enterprise Operations organization’s Competency Based Organization
              status.
           D. Reviewed the Enterprise Operations organization’s 5-Year Strategic Plan (Draft
              Version 4), the TRIPLEX Implementation Plan, and the Modernization and
              Information Technology Services organization’s Improvement Strategy and Plan to
              identify expected benefits from the TRIPLEX initiative.
II.        Evaluated the efficiency and effectiveness of the implementation of the process
           reengineering efforts to determine whether they corrected the problems they were
           established to address and improved the Enterprise Operations organization’s operations.
           Specifically, we evaluated the efficiency and effectiveness of the following process
           reengineering efforts:
           A. Capacity Management.
           B. Change Management.
           C. Configuration Management.
           D. Data and Storage Management.


1
    See Appendix V for a glossary of terms.
                                                                                            Page 10
         Progress Has Been Made in Standardizing Processes in the
       Computing Centers, but Additional Improvements Are Needed to
                            Maximize Benefits



E. Incident Management.
F. Information Technology Security Management.
G. Information Technology Service Continuity Management.
H. Inventory Management and Validation (formerly known as Asset Management).
I. Problem Management.
J. Stakeholder Requirements Management.




                                                                          Page 11
                 Progress Has Been Made in Standardizing Processes in the
               Computing Centers, but Additional Improvements Are Needed to
                                    Maximize Benefits



                                                                              Appendix II

                 Major Contributors to This Report

Alan R. Duncan, Assistant Inspector General for Audit (Security and Information Technology
Services)
Margaret E. Begg, Acting Assistant Inspector General for Audit (Security and Information
Technology Services)
Scott Macfarlane, Director
Danny Verneuille, Audit Manager
Mark Carder, Senior Auditor
Michael Garcia, Senior Auditor
Tina Wong, Senior Auditor
Kanika Kals, Auditor
Tuyet Nguyen, Auditor




                                                                                     Page 12
                Progress Has Been Made in Standardizing Processes in the
              Computing Centers, but Additional Improvements Are Needed to
                                   Maximize Benefits



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief Information Officer OS:CTO:CIO
Deputy Chief Information Officer for Operations OS:CTO
Associate Chief Information Officer, Applications Development OS:CTO:AD
Associate Chief Information Officer, Cybersecurity OS:CTO:C
Associate Chief Information Officer, End-User Equipment and Services OS:CTO:EU
Associate Chief Information Officer, Enterprise Networks OS:CTO:EN
Associate Chief Information Officer, Enterprise Operations OS:CTO:EO
Associate Chief Information Officer, Enterprise Services OS:CTO:ES
Director, Stakeholder Management OS:CTO:SM
Director, Customer Relationship and Integration OS:CTO:EO:CR
Director, Enterprise Computing Center OS:CTO:EO:EC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Program Oversight Office OS:CTO:SM:PO




                                                                                 Page 13
                      Progress Has Been Made in Standardizing Processes in the
                    Computing Centers, but Additional Improvements Are Needed to
                                         Maximize Benefits



                                                                                     Appendix IV

                       Description and Status of the Process
                               Reengineering Efforts

      Process Being                                         Description
      Reengineered
                               Completed Process Reengineering Initiatives
Configuration                 The scope of this reengineering effort was to develop and implement the
Management                    Configuration Management Library within the Enterprise Operations
                              organization. As a result, the Enterprise Operations organization
                              developed the Configuration Management Library as a document
                              repository for Enterprise Operations organization configuration items
                              (e.g., Enterprise Operations inventory reports, Enterprise Operations
                              Program Management Executive Steering Committee minutes, and
                              standard operating procedures).
Information                   The purpose of this reengineering process is to develop standard
Technology Service            operating procedures defining roles and responsibilities for employees
Continuity                    within the Enterprise Operations organization to ensure the required
Management                    information technology technical and services facilities provided by the
                              Enterprise Operations organization can be recovered within required and
                              agreed business time periods. To avoid duplication in the overall
                              Business Continuity Management process, team participants assigned to
                              the process reengineering effort include employees from the
                              Cybersecurity organization. The process reengineering team was
                              scheduled to complete the Detail Design Phase (i.e., standard operating
                              procedures) by June 30, 2009. As of July 15, 2009, we received a draft
                              of the standard operating procedures dated May 22, 2009. The draft
                              procedures need to be approved by the Investment Management and
                              Configuration Control Board. 1




1
    See Appendix V for a glossary of terms.
                                                                                              Page 14
                 Progress Has Been Made in Standardizing Processes in the
               Computing Centers, but Additional Improvements Are Needed to
                                    Maximize Benefits



   Process Being                                    Description
   Reengineered
Inventory            The original scope for the process was management of all assets
Management and       including financial costs and software user licenses; however, the focus
Validation           was later limited to inventory management of the Enterprise Operations
                     organization’s information technology assets. The scope of the
                     reengineering effort was further limited to creating four reports that
                     summarize information pertaining to the overall status of 1) Tier I assets,
                     2) Tier II server assets, 3) End of service life cycle on Enterprise
                     Operations organization assets, and 4) Enterprise Operations
                     organization nonoperational assets owned or leased.
Stakeholder          This is the starting point for the translation of customer needs into
Requirements         functional requirements. The process reengineering effort focuses on
Management           Unified Work Request issues related to only the Enterprise Operations
                     organization.
                      Ongoing Process Reengineering Initiatives
Capacity             This is the process of managing a defined level of capacity on
Management           information and information technology services, including managing
                     the responses to performance incidents. The Capacity Management
                     process reengineering initiative will standardize the process for
                     forecasting resource capacity utilization and the related performance
                     measurement. The process focuses on management of resources and not
                     on the standardization of hardware/software issues. In May 2009, the
                     Capacity Management process reengineering team provided us the
                     Detail Designs for the IBM Tier I, Tier II, and Unisys platforms. The
                     implementation date for the reengineering process was May 26, 2009,
                     but the reengineering team was unable to provide us with any
                     information or timeline to show the Plan of Actions and Milestones that
                     will facilitate the process.
Data and Storage     The mission of this process is to ensure that all data required for
Management           providing and supporting operational services are available for use and
                     data storage facilities can handle normal, expected fluctuations in data
                     volumes, and other requirements within their designed tolerances. The
                     Data and Storage Management process reengineering effort is focusing
                     on standardizing the roles at the process level. We were not provided
                     with an established timeline for completion of the process reengineering
                     efforts or a reason for the lack of significant progress made on the
                     reengineering process during the audit period.

                                                                                       Page 15
                    Progress Has Been Made in Standardizing Processes in the
                  Computing Centers, but Additional Improvements Are Needed to
                                       Maximize Benefits



    Process Being                                              Description
    Reengineered
Information                 The end state vision for the Enterprise Operations organization’s
Technology Security         security reengineering is to establish repeatable, standardized processes
Management                  that control and secure all types of Enterprise Operations organization
                            assets. The reengineering process was scheduled to be deployed on
                            July 1, 2009.
                       Not Started/Closed Process Reengineering Initiatives
Change Management           This process focuses on coordinating and controlling all changes to
                            information technology services to minimize adverse impacts of those
                            changes to business operations and the users of information technology
                            services. In March 2009, the Enterprise Operations organization staff
                            advised us that this initiative was approved and points-of-contact were
                            named. However, the initiative has not started because of staffing and
                            workload issues.
Incident Management         This process reengineering effort focuses on the restoration of service
                            through triage, escalation, and Service Restoration Teams. The
                            August 4, 2008, Program Management Executive Steering Committee
                            briefing information included a proposal to close the Incident
                            Management process reengineering effort, but the meeting minutes did
                            not indicate whether the proposal was approved. The
                            September 12, 2008, Program Management Executive Steering
                            Committee minutes and the Investment Management and Configuration
                            Control Board minutes for April 11 through September 5, 2008, did not
                            include any information on this process.
Problem                     This process reengineering effort focuses on prevention of recurring
Management                  outages based on trend analysis and root cause analysis. The
                            August 4, 2008, Program Management Executive Steering Committee
                            briefing information included a proposal to close the Problem
                            Management process reengineering effort, but the meeting minutes did
                            not indicate whether the proposal was approved. The
                            September 12, 2008, Program Management Executive Steering
                            Committee minutes and the Investment Management and Configuration
                            Control Board minutes for April 11 through September 5, 2008, did not
                            include any information on this process.
Source: Interviews of IRS personnel and the review of documentation provided by the IRS.




                                                                                              Page 16
                  Progress Has Been Made in Standardizing Processes in the
                Computing Centers, but Additional Improvements Are Needed to
                                     Maximize Benefits



                                                                                  Appendix V

                                 Glossary of Terms

Competency Based Organization An organization that is structured independently of
                              geographic boundaries, based on mission-focused groupings
                              of related skills, knowledge, and functions working together
                              across the enterprise to achieve common objectives.
Enterprise Computing Center       Supports tax processing and information management through
                                  a data processing and telecommunications infrastructure.
Full-Time Equivalent              A measure of labor hours in which one full-time equivalent is
                                  equal to 8 hours multiplied by the number of compensable
                                  days in a particular fiscal year. In Fiscal Year 2008,
                                  one full-time equivalent was equal to 2,096 staff hours. In
                                  Fiscal Year 2009, one full-time equivalent was equal to
                                  2,088 staff hours.
Get Well Plan                     A plan that shows how the project/release will resolve issues
                                  identified (e.g., in testing of an Information Technology
                                  Contingency Plan).
Information Technology            A plan that provides viable and actionable procedures and
Contingency Plan                  capabilities for recovering or restoring IRS systems and
                                  applications to their original state in the event of an
                                  information technology system disruption.
Information Technology            A series of books giving guidance--based on best practices--
Infrastructure Library            on the provision of quality information technology services
                                  and on the accommodation and environmental facilities
                                  needed to support information technology.
Investment Management and         A component of the Enterprise Operations organization’s
Configuration Control Board       internal governance structure established to review and decide
                                  on proposed changes to Enterprise Operations-owned
                                  baselined products.
Plan of Actions and Milestones    Prioritizes and assigns dates for remediation of identified
                                  weaknesses.




                                                                                          Page 17
                Progress Has Been Made in Standardizing Processes in the
              Computing Centers, but Additional Improvements Are Needed to
                                   Maximize Benefits



Program Management             A component of the Enterprise Operations organization’s
Executive Steering Committee   internal governance structure established to ensure that
                               projects are well defined, thoroughly planned, implemented,
                               controlled, and integrated into the Enterprise Operations
                               organization environment.
Server Consolidation and       This project will replace and/or refresh more than
Virtualization Project         1,000 physical Wintel servers with about 200 high-end virtual
                               servers and deploy a virtualized infrastructure in the IRS’s
                               computing centers and campus locations.
Service Delivery Command       Responsible for providing incident management and proactive
Center                         monitoring support to ensure service continuity and service
                               restoration.
Stood Up                       In October 2005, the Competency Based Organization was
                               officially recognized.
Tier I                         Computing infrastructure consisting of mainframe computers
                               that handle a high volume of critical operational data.
Tier II                        Computing infrastructure consisting of UNIX-based
                               minicomputer servers that provide specialized services.
Unified Work Request           A required document that provides notification to the
                               Modernization and Information Technology Services
                               organization that a service or support is needed.
Uniform Resource Locator       An address of a webpage on the world wide web.




                                                                                       Page 18
     Progress Has Been Made in Standardizing Processes in the
   Computing Centers, but Additional Improvements Are Needed to
                        Maximize Benefits



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 19
  Progress Has Been Made in Standardizing Processes in the
Computing Centers, but Additional Improvements Are Needed to
                     Maximize Benefits




                                                       Page 20
  Progress Has Been Made in Standardizing Processes in the
Computing Centers, but Additional Improvements Are Needed to
                     Maximize Benefits




                                                       Page 21
  Progress Has Been Made in Standardizing Processes in the
Computing Centers, but Additional Improvements Are Needed to
                     Maximize Benefits




                                                       Page 22
